Audit Report




OIG-12-028
Management Letter for the Audit of the Office of the
Comptroller of the Currency’s Fiscal Years 2011 and 2010
Financial Statements


December 16, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 16, 2011



            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Management Letter for the Audit of the Office of the
                                   Comptroller of the Currency’s Fiscal Years 2011 and 2010
                                   Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of the Comptroller of the Currency’s (OCC) Fiscal Years 2011
            and 2010 financial statements. Under a contract monitored by the Office of
            Inspector General, GKA, P.C. (GKA), an independent certified public accounting
            firm, performed an audit of the financial statements of OCC as of
            September 30, 2011 and 2010 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, GKA issued and is responsible for the accompanying
            management letter that discusses certain matters involving internal control over
            financial reporting and its operation that were identified during the audit, but were
            not required to be included in the auditor’s reports.

            In connection with the contract, we reviewed GKA’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where GKA did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or
            a member of your staff may contact Ade Bankole, Manager, Financial Audits
            at (202) 927-5329.

            Attachment
                                                                       1015 18th Street, NW
Certified Public Accountants                                                Suite 200
& Consultants                                                         Washington, DC 20036
                                                                        Tel: 202-857-1777
                                                                        Fax: 202-857-1778
                                                                        www.gkacpa.com




OFFICE OF THE COMPTROLLER OF THE CURRENCY
            MANAGEMENT LETTER
               FISCAL YEAR 2011


                      October 31, 2011




                               Member of the American Institute of Certified Public Accountants
                 Certified Public Accountants
                 & Consultants


                          Inspector General, Department of the Treasury, and
www.gkacpa.com            the Comptroller of the Currency:

                          We have audited the balance sheet as of September 30, 2011 and the related
                          statements of net cost, changes in net position, and budgetary resources for the
                          year then ended, hereinafter referred to as “financial statements”, of the Office
                          of the Comptroller of the Currency (OCC) and have issued an unqualified
                          opinion thereon dated October 31, 2011. In planning and performing our audit
                          of the financial statements of the OCC, we considered its internal control over
                          financial reporting in order to determine our auditing procedures for the
                          purpose of expressing our opinion on the financial statements and not to
                          provide assurance on internal control. We have not considered the internal
                          control since the date of our report.

                          During our audit we noted certain matters involving OCC’s information
                          technology general controls that are presented in this letter for your
                          consideration. The comments and recommendations, all of which have been
                          discussed with the appropriate members of OCC management, are intended to
                          improve OCC’s information technology general controls or result in other
                          operating efficiencies.

                          OCC management’s responses to our comments and recommendations have
                          not been subjected to the auditing procedures applied in the audit of the
                          financial statements and, accordingly, we do not express an opinion or provide
                          any form of assurance on the appropriateness of the responses or the
                          effectiveness of any corrective action described therein.

                          We appreciate the cooperation and courtesies extended to us during the audit.
                          We will be pleased to meet with you or your staff, at your convenience, to
                          discuss our report or furnish any additional information you may require.




                          October 31, 2011

  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 2011-01
         202-857-1777
   Fax: 202-857-1778
                                                 Member of the American Institute of Certified Public Accountants
                       Office of the Comptroller of the Currency
                   Management Letter Comments and Recommendations
                            Year Ended September 30, 2011



Improvements Needed in Information Technology General Controls over OCC’s Financial
Systems (Repeat Condition).

In our fiscal year (FY) 2010 audit, we identified weaknesses in the areas of entity-wide security
management and contingency planning controls, and configuration management. We reported
these weaknesses to management in a management letter. In FY 2011, these two issues identified
in the prior years remain partially unresolved. In addition, three new findings related to access
controls, contingency planning and configuration management were identified.

The weaknesses noted in OCC’s IT general controls are noted and discussed below.

(A) Security Management and Contingency Planning

   OCC’s process for updating its Certification and Accreditation (C&A) documentation
   needs improvement. (Repeat Condition).

   As noted during our prior year audit, OCC’s process for updating its Certification and
   Accreditation (C&A) documentation needs improvement. Specifically, we noted the
   following:

      The $MART Systems Security Plan (SSP) version 5.0 is not updated to meet NIST 800-
       18 Revision 1 requirements. Specifically, we noted the following:
           o The $MART SSP does not describe how each security control is being
             implemented or planned to be implemented;
           o The $MART SSP does not identify the scoping guidance that has been applied to
             the security controls
           o The $MART SSP does not identify any of the agency-defined parameters in the
             security controls
           o The $MART SSP does not describe how the common controls are implemented or
             who is responsible for their implementation.
           o The $SMART SSP does not accurately document the $MART operating
             environment. Page Seven of the plan states that $MART is a commercial off the
             shelf (COTS) application customized for the OCC and is based on PeopleSoft
             Financials version 8.49. However $MART currently uses PeopleSoft Financials
             version 8.9.

      The Network Infrastructure (NI) General Support System (GSS) Systems Security Plan
       (SSP) has not been updated to reflect the OCC's current operating environment or the
       NIST 800-53 Revision 3 controls.


                                                2
                   Office of the Comptroller of the Currency
               Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

Specifically, we noted the following:
       o Several NIST 800-53 Revision 3 controls are not accurately reflected in the NI
         GSS SSP. For example, the AC-12, Session Termination, and AC-13,
         Supervision and Review—Access Control, have been withdrawn from 800-53
         Revision 3, but are still documented within the SSP.
       o The "organizationally-defined" frequencies and values defined by NIST 800-53
         Revision 3 have not been documented within the NI GSS SSP. Additionally, the
         Compliance descriptions do not address whether the "organizationally-defined"
         controls are in place or planned. For example the RA-5 control does not address
         the organizationally-defined timeframe for remediating security vulnerabilities
       o Section 1.6.2, System Interconnections/Information Sharing, has not been updated
         to reflect accurate agreement dates for the Memorandum of Understanding and
         Interconnection Security Agreements in place.
       o Section 1.8, Privacy Impact Assessment, states that, the NI GSS Privacy Impact
         Assessment (PIA) was revised and reviewed in October 2008, but has not been
         approved as of the date of this document. However, we noted that the NI GSS
         PIA was actually completed and approved.
       o Section 2.3.4, Risk Assessment (RA-3), has not been updated with the current Risk
         Management Framework information such as the October 2009 Certification and
         Accreditation information.
       o Section 3.4.2, Contingency Plan (CP-2), states that the OCC Information
         Technology Disaster Recovery Plan (ITRP), dated April 4, 2008, serves as the
         Contingency Plan for the Network Infrastructure GSS; however there is an
         updated version of the ITRP currently in place.

   The $MART Contingency Plan has not been updated to reflect the current $MART
    environment or NIST 800-34 Requirements. Specifically, we noted the following:
       o The $MART Contingency Plan does not contain procedures for recovering the
         $MART system in a disaster situation. Additionally, the recovery procedures are
         not documented in the ITRP.
       o The $MART Contingency Plan has not been updated to reflect the upgrade from
         PeopleSoft 8.4 to PeopleSoft 8.9.

   Network Infrastructure (NI) General Support System (GSS) Contingency Plan has not
    been updated to reflect the NI environment or NIST 800-34 Requirements. Specifically,
    we noted the following:
       o The NI GSS Contingency Plan does not contain procedures for recovering the NI
         system in a disaster situation. Additionally, the recovery procedures are not
         documented in the ITRP.



                                           3
                    Office of the Comptroller of the Currency
                Management Letter Comments and Recommendations
                         Year Ended September 30, 2011

        o NI GSS Contingency Plan states, “IBM Compatible 2013 Amdahl Mellenium
          Mainframe running ZOS .14 Operating System is planned for decommission by
          2008”; however there was no evidence available to show that this had actually
          occurred.
        o The NI GSS Contingency Plan states that the planned migration to Dell EMC
          Storage Area Network (SAN) is set for 2007; however, the Dell EMC migration
          has been completed and the NI GSS Contingency Plan has not been updated to
          reflect the migration.

   The $MART Security Assessment Report was not updated to reflect the upgrade from
    PeopleSoft 8.4 to PeopleSoft 8.9

The current process for updating certification and accreditation documentation as changes
occur in the OCC environment is not effective. As a part of the update of the $MART SSP,
details were taken out that made the plan inconsistent with NIST 800-18 requirements. Also,
OCC has not updated the system security plans for its major application and general support
system to address the NIST 800-53 Revision 3 controls. Additionally, OCC created a
database to house its procedures for recovering information systems in disaster situations;
however the procedures were not incorporated into the contingency plans for the $MART
system or the Network Infrastructure.

The Planning Section of NIST 800-18 Guide for Developing Security Plans for Federal
Information Systems Revision 1, states the following:
       “The purpose of the system security plan is to provide an overview of the security
        requirements of the system and describe the controls in place or planned for meeting
        those requirements. The system security plan also delineates responsibilities and
        expected behavior of all individuals who access the system.”
       “The system security plan provides a summary of the security requirements for the
        information system and describes the security controls in place or planned for
        meeting those requirements. The plan also may reference other key security-related
        documents for the information system such as a risk assessment, plan of action and
        milestones, accreditation decision letter, privacy impact assessment, contingency
        plan, configuration management plan, security configuration checklists, and system
        interconnection agreements as appropriate.”
       “An agency must meet the minimum security requirements in this standard by
        applying security controls selected in accordance with NIST SP 800-53 and the
        designated impact levels of the information systems. An agency has the flexibility to
        tailor the security control baseline in accordance with the terms and conditions set
        forth in the standard. Tailoring activities include: (i) the application of scoping
        guidance; (ii) the specification of compensating controls; and (iii) the specification of
        agency-defined parameters in the security controls, where allowed. The system
        security plan should document all tailoring activities.”

                                              4
                   Office of the Comptroller of the Currency
               Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

      “For efficiency in developing system security plans, common security controls should
       be documented once and then inserted or imported into each system security plan for
       the information systems within the agency. The individual responsible for
       implementing the common control should be listed in the security plan.”
      “System security plans should clearly identify which security controls employed
       scoping guidance and include a description of the type of considerations that were
       made. The application of scoping guidance must be reviewed and approved by the
       authorizing official for the information system.”

The Planning Section of NIST 800-53 Recommended Security Controls for Federal
Information Systems and Organizations, Revision 3, states the following:

   “Control: The organization:
   a. Develops a security plan for the information system that:
   - Is consistent with the organization’s enterprise architecture;
   - Explicitly defines the authorization boundary for the system;
   - Describes the operational context of the information system in terms of missions and
      business processes;
   - Provides the security category and impact level of the information system including
      supporting rationale;
   - Describes the operational environment for the information system;
   - Describes relationships with or connections to other information systems;
   - Provides an overview of the security requirements for the system;
   - Describes the security controls in place or planned for meeting those requirements
      including a rationale for the tailoring and supplementation decisions; and
   - Is reviewed and approved by the authorizing official or designated representative
      prior to plan implementation;
   b. Reviews the security plan for the information system [Assignment: organization-
      defined frequency]; and
   c. Updates the plan to address changes to the information system/environment of
      operation or problems identified during plan implementation or security control
      assessments.”

The Contingency Planning Section of NIST 800-53 Recommended Security Controls for
Federal Information Systems and Organizations, Revision 3, states the following:
   “Control: The organization:
   a. Develops a contingency plan for the information system that:
   -     Identifies essential missions and business functions and associated contingency
         requirements;
   -     Provides recovery objectives, restoration priorities, and metrics;
   -     Addresses contingency roles, responsibilities, assigned individuals with contact
         information;
   -     Addresses maintaining essential missions and business functions despite an
         information system disruption, compromise, or failure;

                                           5
                    Office of the Comptroller of the Currency
                Management Letter Comments and Recommendations
                         Year Ended September 30, 2011

   -       Addresses eventual, full information system restoration without deterioration of the
           security measures originally planned and implemented; and
   -       Is reviewed and approved by designated officials within the organization;
   b.   Distributes copies of the contingency plan to [Assignment: organization-defined list
        of key contingency personnel (identified by name and/or by role) and organizational
        elements];
   c.   Coordinates contingency planning activities with incident handling activities;
   d.   Reviews the contingency plan for the information system [Assignment: organization-
        defined frequency];
   e.   Revises the contingency plan to address changes to the organization, information
        system, or environment of operation and problems encountered during contingency
        plan implementation, execution, or testing; and
   f.   Communicates contingency plan changes to [Assignment: organization-defined list of
        key contingency personnel (identified by name and/or by role) and organizational
        elements].”

The Security Assessment and Authorization Section of NIST 800-53 Recommended Security
Controls for Federal Information Systems and Organizations, Revision 3, states the
following:

   “Control: The organization:
   a. Develops a security assessment plan that describes the scope of the assessment
      including:
   -    Security controls and control enhancements under assessment;
   -    Assessment procedures to be used to determine security control effectiveness; and
   -    Assessment environment, assessment team, and assessment roles and
        responsibilities;”

Over time, policies and procedures may become inadequate because of changes in threats,
changes in operations or deterioration in the degree of compliance. Failure to update
certification and accreditation documentation increases the probability that OCC
management may not be aware of how system and environmental changes impact the OCC’s
ability to recover from disaster situations. Additionally, risks may not be adequately
identified and corresponding controls implemented to address those risks.

RECOMMENDATIONS:

We recommend the following:
1. OCC management implement a process to ensure that C&A documentation is updated
   timely in accordance with OCC policy and ensure that approvals are documented on file.
2. Additionally, OCC should ensure that the information contained in the C&A
   documentation is accurate and reflects the current system operating and organizational
   environment.


                                              6
                   Office of the Comptroller of the Currency
               Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

3. OCC management should ensure that the $MART SSP is consistent with NIST 800-18
   requirements

MANAGEMENT RESPONSE:

Management concurs with the Finding and Recommendations. OCC management is in the
process of taking corrective action, reincorporating control implementation into the current
$MART System Security Plan, in order to bring it back into compliance with NIST Special
Publication 800-18: Guide for Developing Security Plans for Federal Information Systems.

1) OCC management ensured that all noted updates to the Network Infrastructure (NI)-
   General Support System (GSS) operating environment were incorporated in the annual
   System Security Plan review completed on October 29, 2011.

Additionally, OCC management will:

2) Evaluate the NI-GSS documents and ensure that documentation utilizes controls outlined
   in NIST Special Publication 800-53 Revision 3: Recommended Security Controls for
   Federal Information Systems and Organizations, to include documented
   “organizationally-defined” frequencies and values;
3) Review the $MART System Security Plan, Contingency Plan, and Security Assessment
   Report to ensure that the current system operating environment is documented to reflect
   the upgrade of PeopleSoft to version 8.9; and
4) Update the NI-GSS Contingency Plan and $MART Contingency Plans to reflect the
   accurate operating environments of each system and to ensure they reference the correct
   procedures for recovering the system in the event of a disaster.




                                             7
                      Office of the Comptroller of the Currency
                  Management Letter Comments and Recommendations
                           Year Ended September 30, 2011

(B) Access Controls

   Weaknesses in the OCC’s process for managing service accounts.

   Specifically, we noted the following:
      Seventy-seven service accounts on the OCC network had never logged on to the network
       or had not logged on for more than one year; however there was no evidence that these
       accounts had been reviewed to determine whether or not they were still necessary.
      Twenty-five active service accounts on the OCC network whose passwords have been set
       to Never Expire; however, there was no evidence that their passwords had been changed
       on an annual basis in accordance with OCC requirements.
      There was no evidence that service accounts on the SQL Server database supporting the
       $MART application had been reviewed to determine whether or not they were still
       necessary.
      One service account on the SQL Server database supporting $MART was identified as
       having database administrator privileges. OCC policy states that service accounts must
       not be granted administrator privileges.

   OCC currently does not have a process in place for periodically reviewing service accounts
   for appropriateness. Additionally, network passwords are not being changed for service
   accounts in accordance with OCC policy.


   The OCC Master Security Controls Catalog, states the following:
      ”The OCC manages information system accounts, including establishing, activating,
       modifying, reviewing, disabling, and removing accounts. The organization reviews
       information system accounts [monthly].”
      “The information system automatically disables inactive accounts after no more than [90
       days].”

   OCC Information Technology Services Directive, AC: Account Management, 01-02, version
   090707, states
          Information Technology Services (ITS) is solely responsible for the issuance and
           control of all Service Accounts that permit access to OCC information systems and
           databases. ITS shall designate appropriate individuals within ITS (FTEs as well as
           contractors) to manage the appropriate Service Accounts (such SQL server, Sybase
           Server, SIS Application Services, WISDM Application Services).
          OCC Service Accounts must be dedicated to a specific, documented task, and are not
           issued for general purposes



                                               8
                   Office of the Comptroller of the Currency
               Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

      OCC Service Accounts must be granted the minimum necessary privileges to perform
       the specific, documented task. ITS holds and maintains documentation on the
       requirements for every Service Account.
      OCC Service Accounts must not be granted administrator privileges
      ITS shall maintain a current list of all OCC Service Accounts. This list will be made
       available only on a need-to-know basis to authorized personnel. A list of accounts
       will be made available to the OCC Computer Incident Response Center (CIRC) so
       that compliance with the password standard can be monitored monthly.
      Service Account passwords must be reset after one year, at the departure of any staff
       member with knowledge of the password, or when an application is moved into the
       production environment.

Without an adequate process for periodic review of service accounts and passwords,
unauthorized or unnecessary users may have access permissions to OCC systems and data.

RECOMMENDATIONS:

We recommend the following:
1. OCC management ensure that service accounts are periodically reviewed for
   appropriateness.
2. OCC ensure that passwords for service accounts are changed in accordance with OCC
   policy.

MANAGEMENT RESPONSE:

Management concurs with the Finding and Recommendations. OCC management will
update policies and procedures related to the management of Service Accounts, ensuring
alignment with relevant guidance and best practices. Additionally, OCC management will
train appropriate staff in policies and procedures associated with Service Account
management and will enhance the current account management program to more closely
monitor Service Account compliance with applicable policies.




                                            9
                      Office of the Comptroller of the Currency
                  Management Letter Comments and Recommendations
                           Year Ended September 30, 2011


(C) Contingency Planning

   Backup tapes have not been tested on a quarterly basis for $MART and the Network
   Infrastructure to ensure their viability, reliability and integrity in the event of a
   disaster.

   OCC informed us that backup tapes are tested on a semi-annual basis as a part of the
   functional disaster recovery testing. However, testing had not occurred this year as of August
   31, 2011 because of contract negotiations with the alternate site provider IBM. OCC
   conducted a backup tape test as a part of a disaster recovery test in late September.

   The OCC Master Security Controls Catalog, states the following:
      “OCC tests backup information on a quarterly basis to verify media reliability and
       information integrity.”

   Lack of adequate testing of backups increases the risk that OCC may not be able to recover
   backup data in a disaster situation.

   RECOMMENDATION:

   1. We recommend that OCC periodically test backup tapes in accordance with OCC policy.

   MANAGEMENT RESPONSE:

   Management concurs with the Finding and Recommendation, noting exception with elements
   of the condition. OCC Server and Storage Operations (SSO) conducts regular restoration of
   servers that comprise the Network Infrastructure-General Support System. Since the
   beginning of the calendar year, SSO has conducted ninety nine server recoveries, without
   failure. As noted in the Notification of Finding and Recommendation, OCC conducted a
   disaster recovery exercise, to include testing of the reliability of $MART backup media, prior
   to the end of the fiscal year. Management will evaluate current OCC media testing
   procedures and policy to ensure compliance with NIST guidance and Treasury Department
   directives, and will take prudent steps to ensure the reliability of backup media.




                                                10
                      Office of the Comptroller of the Currency
                  Management Letter Comments and Recommendations
                           Year Ended September 30, 2011


(D) Configuration Management

   OCC’s controls for configuring information systems in accordance with documented
   baseline configurations need improvement.

      Specifically, we noted the following:

         $MART MS SQL Server 2005 TCP port is set to 1433. However, the MS SQL Server
          2005 baseline configuration states that SQL Server TCP Ports should be set to
          something other than 1433 and 1434.

         The Default Domain Policy settings are not consistent with the Baseline
          Configuration Settings for the Windows Server 2003. Specifically, the following
          settings were not consistent with the documented baseline:
              o Minimum Password Length
              o Maximum password Age
              o Enforce Password History
              o Account lockout duration
              o Audit Logon Events
              o Audit Privilege Use
              o Audit Object Access

   OCC had not updated its system configurations and documented baselines to ensure that
   system settings are consistent with the approved baselines

   The OCC Master Security Controls Catalog, states the following:
       The OCC develops, documents, and maintains a current baseline configuration of the
         information system.
       The OCC updates the baseline configuration of the information system as an integral
         part of information system component installations.

   The Configuration Management Section of NIST 800-53 Recommended Security Controls
   for Federal Information Systems and Organizations, Revision 3, states the following:

      “Control: The organization:
      a. Establishes and documents mandatory configuration settings for information
         technology products employed within the information system using [Assignment:
         organization-defined security configuration checklists] that reflect the most restrictive
         mode consistent with operational requirements;
      b. Implements the configuration settings;




                                                11
                   Office of the Comptroller of the Currency
               Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

   c. Identifies, documents, and approves exceptions from the mandatory configuration
      settings for individual components within the information system based on explicit
      operational requirements; and
   d. Monitors and controls changes to the configuration settings in accordance with
      organizational policies and procedures.”

Due to these weaknesses, system security configurations may not be adequately configured
to mitigate risks to OCC’s environment. This increases the risk that individuals may exploit
vulnerabilities to obtain inappropriate access to OCC systems and data thus putting OCC
systems at risk of inadvertent or deliberate disclosure, modification, or destruction.

RECOMMENDATION:

1. We recommend that OCC management ensure that OCC system configurations are
   consistent with the approved baselines.

MANAGEMENT RESPONSE:

Management concurs with the Finding and Recommendation, noting exception with elements
of the condition. Based on internal review of policy compliance scans of $MART servers,
OCC management notes that several policy deviations referenced in the condition do not
exist on $MART servers. OCC management will review current configurations and
documented baselines to ensure compliance with relevant industry best practices and
standards, and applicable agency policy. OCC management will also evaluate the process for
identifying, documenting, and approving deviations from documented baseline
configurations.

Users have administrative rights to install personal or public domain software on their
desktops. (Repeat Condition).

As noted during the prior year audit, although a process for removing and detecting
unauthorized software is implemented as compensating controls, the controls do not fully
mitigate the weakness. Users still have administrative rights to install personal or public
domain software on their desktops.

OCC suspended the implementation of the Beyond Trust (BT) Project in anticipation of
migrating all user workstations to Windows 7. According to OCC, Windows 7 will allow
OCC to remove administrative privileges while still giving applications the necessary
permissions to execute. OCC also plans to establish a software white list to prevent the
installation of unauthorized software.

NIST Special Publication 800-53, Recommended Security Controls for Federal Information
Systems, Revision 3 states:


                                            12
                   Office of the Comptroller of the Currency
               Management Letter Comments and Recommendations
                        Year Ended September 30, 2011

“Control: The organization enforces explicit rules governing the installation of software by
users.

Supplemental Guidance: If provided the necessary privileges, users have the ability to install
software. The organization identifies what types of software installations are permitted (e.g.,
updates and security patches to existing software) and what types of installations are
prohibited (e.g., software whose pedigree with regard to being potentially malicious is
unknown or suspect).”

The use of unapproved software by employees could negatively impact processing
operations, introduce harmful viruses, and/or cause the loss of data.

RECOMMENDATION:

1. We recommend that OCC management continue with its plan to implement a software
   solution to restrict users from installing and executing unauthorized software on OCC
   workstations.

MANAGEMENT RESPONSE:

Management concurs with the Finding and Recommendation. The OCC has elected to
address this issue as a part of upcoming technology refresh activities that are scheduled for
FY2012.       OCC management has elected to deploy a United States Government
Configuration Baseline (USGCB) compliant Windows 7 desktop image with an enterprise
application control solution and standard user rights, replacing the current Windows XP
image with local administrator rights. This strategy will leverage existing large-scale
projects to address this weakness, and will limit identified risks associated with such a far
reaching project. Until such time that this image is deployed, OCC management will
continue to dedicate resources to enhance the detective compensating controls in place to
limit risk associated with the install of unauthorized software.




                                             13
